      Department of Homeland Security





             DHS Can Make Improvements to 

            Secure Industrial Control Systems 





OIG-13-39                                     February 2013

                          OFFICE OF l~ S P[CTOR GENf.RAL
                              Dcpanment o f Homeland Security



                                      February 14, 2013


MEMORANOUM FOR:               The Honor.lble Rand Seers
                              Under 5«retary
                              Nation,,' Protection and Programs Olrectorate

FRO M:                        Charles 1(, Edwards
                              Deputy In spector Gene ral   (fd 1;LJ  ....,    '

SUBJECT:                      DHS Can Main!! Improvement> to 5ei:lJfe 1r'ldlJstriol
                              CDntrol SystemJ


Attached for your action is our final report, OHS Con Moke Improvements to Sentre
Industrial Control Systems. We incorporated YOllr fonmil com menu in the fina l report.

The report contains two recommendation s aimed at improvin g th e secu rity of control
sr;tems. Your office concu rred with all recommendations. As prescribed by the
Department of ~omel an d Security Directive 077-1, Follow- Up and Resol"'tions for the
Office of In'pector General Report ReCQmmendations, with in 90 davs of th e date of this
memorandum, please provide Ollr office with a written response that includes your
(1 ) agreement or disagreement, (2) corrective act ion plan, and (3) target rompletion
date for each r~ommendalion. Also, ple"se inClude responsible parties aJld ilny olher
supporting doc Umentation Jletessary to Inform us abollt the current stUIIS of the
recom mend ation, Unti l your response is received and evaluated, the recommen d~tion s
will be conside red open ~ nd unresolved.

Consistent with our ruponsib ility under the Inspector General Act, we are providing
copies of our report to appropri ate congrenional CQmm ittees with oW!rslgh t and
appropriation responsibility over the Depart ment of Homeland Secur ity. We will post
t he report o n our website for public dISsemina tion.·

Please call me with any qUEstion, or your staff may contact Frank W, Defter,
Ass istant In spector General, Office of Information Technolo gy Audits, at (202) 254-4100,

Attachment
                                      OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security
                                       

Table of Contents
Executive Summary............................................................................................................. 1

Background ......................................................................................................................... 2

Results of Audit ................................................................................................................... 5

           Progress Made in Improving the Security of Industrial Control Systems ............... 5 

           Better Information Sharing and Communication Can Enhance Coordination 

           Efforts With the Public ............................................................................................ 6 

           Recommendations .................................................................................................. 9 

           Management Comments and OIG Analysis ............................................................ 9 


Appendixes
           Appendix A:          Objectives, Scope, and Methodology ............................................ 11
           Appendix B:          Management Comments to the Draft Report ............................... 13
           Appendix C:          Major Contributors to This Report ................................................ 15
           Appendix D:          Report Distribution ........................................................................ 16

Abbreviations
           CIKR                  critical infrastructure and key resources
           CIO                   Chief Information Officer
           CISO                  Office of Chief Information Security Office
           CSSP                  Control Systems Security Program
           DHS                   Department of Homeland Security
           DNDO                  Domestic Nuclear Detection Office
           HSIN                  Homeland Security Information Network
           HSPD                  Homeland Security Presidential Directive
           ICS                   industrial control systems
           ICS-CERT              Industrial Control Systems Cyber Emergency Response Team
           INL                   Idaho National Laboratory
           NPPD                  National Protection and Programs Directorate
           OCIO                  Office of Chief Information Officer
           OIG                   Office of Inspector General
           US-CERT               United States Computer Emergency Readiness Team




www.oig.dhs.gov                                                                                                         OIG-13-39
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Executive Summary
   We evaluated the progress the Department of Homeland Security (DHS) has made in
   addressing cybersecurity issues and coordinating the response efforts between the
   public and private sectors for industrial control systems. Security for industrial control
   systems has been inherently weak because the systems were not designed to be
   accessible from external networks or the Internet. However, beginning in 1990,
   companies began to connect their industrial control systems with enterprise systems
   that are connected to the Internet. This transition allowed remote control of processes
   and exposed industrial control systems to cyber security risks that could be exploited
   over the Internet. The National Cybersecurity and Communications Integration Center,
   a division of the Office of Cybersecurity and Communications within the National
   Protection and Programs Directorate (NPPD), is the operational arm of NPPD and is
   responsible for providing full-time monitoring, information sharing, analysis, and
   incident response capabilities to protect Federal agencies’ networks and critical
   infrastructure and key resources, such as industrial control systems.

   NPPD has strengthened the security of industrial control systems by establishing the
   Industrial Control Systems Cyber Emergency Response Team to address the need to
   share critical cybersecurity information, analyze vulnerabilities, verify emerging threats,
   and disseminate mitigation strategies. NPPD also facilitates cybersecurity information
   sharing between the public and private sectors through various working groups, issuing
   alerts and bulletins, and conducting cybersecurity training and conferences regarding
   industrial control systems.

   Although NPPD has made progress in securing control systems, further improvements
   can be made in information sharing. For example, NPPD needs to consolidate the
   multiple information sharing communities of interests used to disseminate control
   system cybersecurity information efficiently and effectively. Additionally, NPPD should
   provide advance notification of technical and ongoing vulnerability and malware
   assessments to better coordinate response efforts with the public and private sectors to
   prevent, detect, and mitigate potential cyber threats.

   We are making two recommendations to NPPD to improve its information sharing
   process and response coordination efforts. NPPD concurred with all recommendations
   and has begun to take actions to implement them. NPPD’s responses are summarized
   and evaluated in the body of this report and included, in their entirety, as appendix B.




www.oig.dhs.gov                                 1                                        OIG-13-39
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Background
   Industrial control systems (ICS) are systems that include supervisory control and data
   acquisition, process control, and distributed control that manage and monitor the
   Nation’s critical infrastructure and key resources (CIKR).1 ICS are an integral part of our
   Nation, and help facilitate operations in vital sectors. Security for ICS was inherently
   weak because the systems were never intended to be accessible from external networks
   or the Internet. However, beginning in 1990, companies began connecting their
   operational ICS with enterprise systems that are connected to the Internet. The
   migration allows asset owners to access new and more efficient methods of
   communication, as well as more robust data, and gain quicker time to market and
   interoperability.




   Examples of CIKR sectors – Dams, Energy, and Nuclear

   This transition allowed remote control of processes and exposed ICS to cyber security
   risks that could be exploited over the Internet. ICS are increasingly under attack by a
   variety of malicious sources. These range from hackers looking for attention and
   notoriety to sophisticated nation-states intent on damaging equipment and facilities,
   1
     There are 18 CIKR sectors: Agriculture and Food, Banking and Finance, Chemical, Commercial Facilities,
   Communications, Critical Manufacturing, Dams, Defense Industrial Base, Emergency Services, Energy,
   Government Facilities, Healthcare and Public Health, Information Technology, National Monuments and
   Icons, Nuclear Reactors, Material and Waste, Postal and Shipping, Transportation Systems, and Water.

www.oig.dhs.gov                                        2                                              OIG-13-39
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   disgruntled employees, competitors, and even personnel who inadvertently bring
   malware into the workplace by inserting an infected flash drive into a computer. A
   successful cyber attack on ICS may result in physical damage, loss of life, and cascading
   effects that could disrupt services. A recent survey in the energy sector revealed that a
   majority of the companies in the sector had experienced cyber attacks, and about 55
   percent of these attacks targeted ICS. The cyber attacks involved large-scale
   denial-of-service and network infiltrations. Successful attacks on ICS can give malicious
   users direct control of operational systems, creating the potential for large-scale power
   outages or man-made environmental disasters. Some recent cyber attacks have
   included the following:

   •	 In February 2011, the media reported that hackers had stolen proprietary
      information worth millions of dollars from the networks of six energy companies in
      the United States and Europe.

   •	 In December 2011, a sophisticated threat actor targeted the oil and natural gas
      subsector. Affected asset owners across the sector voluntarily worked with DHS
      during the investigation.

   •	 Throughout 2011, there were reports of spear-phishing via email in the Energy sector;
      no negative impacts occurred to the companies’ control processes and operations.

   •	 In March 2012, an alert was issued regarding phone-based social engineering
      attempts at two or more power distribution companies. The callers attempted to
      direct the company personnel to take action to correct a problem that would have
      allowed the attacker to gain access to their ICS.

   •	 In April 2012, media reported that a Canadian ICS manufacturing company
      inadvertently planted a backdoor login account in its own operating systems, which
      contain switches and servers used in mission-critical communications networks that
      operate power grids and railway and traffic control systems. This account could
      have allowed attackers to access the devices via the Internet.

   Homeland Security Presidential Directive (HSPD)-7, Critical Infrastructure Identification,
   Prioritization, and Protection directs DHS to produce a comprehensive and integrated
   national plan to protect CIKR. HSPD-7 also designated DHS as a national focal point for
   securing cyberspace. To lead this effort, NPPD established the Control Systems Security
   Program (CSSP). The goal of the CSSP is to guide a cohesive effort between government
   and industry to reduce the cyber risk on ICS. The CSSP provides guidance and reduces
   risk to CIKR control systems by


www.oig.dhs.gov                                3	                                       OIG-13-39
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   •	 Implementing the Strategy to Secure Control Systems as part of its mission to 

      coordinate and lead efforts to improve control systems security in the Nation’s 

      critical infrastructures; and 


   •	 Establishing the Industrial Control Systems Cyber Emergency Response Team
      (ICS-CERT) as the operational arm to coordinate with the United States Computer
      Emergency Readiness Team (US-CERT) to respond to control systems related
      incidents and promote situational awareness activities on ICS.

   ICS-CERT’s operational capabilities focus on the private sector CIKR ICS and networks,
   which is essential to the Department’s mission to protect the Nation’s critical
   infrastructure, particularly against emerging cyber threats. Additionally, ICS-CERT uses
   the Request Tracker Ticketing System to capture analytical and status information
   regarding vulnerabilities and incidents. The ticketing system maintains the incident
   response team’s remote technical assistance and onsite assessment status and reports.
   Tickets are color-coded based on age. The ticketing system notifies the assigned
   personnel when the status of a ticket is changed or further action is needed. Additionally,
   ICS-CERT coordinates control systems-related security incidents and information sharing
   with Federal, state, and local agencies and organizations, as well as private sector
   constituents, including vendors, owners, and operators of ICS.

   ICS-CERT exchanges information with stakeholders via the Homeland Security
   Information Network (HSIN) – Critical Sector. The Office of Chief Information and
   Officer (OCIO) develops and maintains HSIN and serves as data governance steward for
   HSIN policy documents, including the HSIN Model Charter and HSIN Terms of Service.
   Although OCIO is the data steward, the office is not responsible for maintaining the
   content that users and communities of interest post to any element of HSIN.2 Each
   community of interest sponsor is responsible for maintaining and sharing the content
   within the community of interest and through the community of interest shared space.3
   The administration and governance of the communities of interests, including creation
   of individual sites within the community, is at the discretion of their sponsors. OCIO
   works in cooperation with each community of interest to enforce the rules in the
   charter and terms of services. OCIO conducts regular reviews of communities of


   2
     HSIN communities of interest are separate environments wherein users involved in the same subject
   matter area or industry may post and view potentially relevant news and information and use collaborative
   tools.
   3
     The HSIN shared space allows authorized stakeholders and content contributors to publish finished
   products and relevant documents that (1) have appropriate markings providing sharing permissions at the
   document level, and (2) are targeted to an authorized audience based on their credentials and related
   community of interest and system wide rules for sharing.

www.oig.dhs.gov                                       4	                                             OIG-13-39
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   interest to validate and justify its purpose, objectives, and operational need. NPPD
   sponsors and manages the critical sector communities of interests.

   Results of Audit
   Progress Made in Improving the Security of Industrial Control Systems

   NPPD has strengthened the security of ICS by addressing the need to share critical
   cybersecurity information, analyze vulnerabilities, verify emerging threats, and
   disseminate mitigation strategies. For example, DHS has taken the following actions to
   improve ICS security and foster better partnerships between the Federal and private
   sectors:

   •	 Establishing ICS-CERT Incident Response Team, also known as the fly away teams, to
      support the public and private sectors through onsite and remote incident response
      services on a variety of cyber threats, ranging from general malicious code infections
      to advanced persistent threat intrusions. Additionally, in March 2012, NPPD released
      the Cyber Security Evaluation Tool Version 4.1. The updated tool assists users in
      identifying devices connected to their networks, as well as external connections, by
      creating a diagram of their systems.

   •	 Operating a malware lab that provides testing capabilities to analyze vulnerabilities
      and malware threats to control system environments. The team verifies
      vulnerabilities for researchers and vendors, performs impact analysis, and provides
      patch validation and testing prior to deployment to the asset-owner community.

   •	 Improving the quality of its alerts and bulletins by including actionable information
      regarding vulnerabilities and recommended mitigations and best practices for
      securing ICS.

   •	 Providing products to the ICS community on a daily, weekly, monthly, quarterly, and
      as-needed basis, through email, website, and portal postings. These products help
      ICS-CERT to improve the situational awareness of ICS and provide status updates of
      its working groups, articles of interest, and upcoming events and training.




www.oig.dhs.gov                                5	                                         OIG-13-39
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   •	 Implementing a virtual private network solution to allow CSSP program officials to
      access program applications and systems (e.g., the ICS-CERT ticketing system)
      located at the Idaho National Laboratory (INL).4

   •	 Assisting in developing various roadmaps for the cross-sector, dams, nuclear, water,
      and transportation. The roadmaps provide vision and framework for mitigating
      cybersecurity risk to the wide variety of systems critical to each sector’s operations.

   NPPD has strengthened its outreach efforts with the ICS community, including vendors,
   owners/operators, academia, and other Federal agencies. These efforts include
   participating in the monthly Cross-Sector Cyber Security Working Group meetings;
   Government Coordinating Council and Sector Coordinating Council meetings; monthly
   Electricity subsector teleconference, quarterly Oil and Natural Gas subsector
   conference, and monthly Nuclear sector teleconferences; and Industrial Control Systems
   Joint Working Group and its subgroup meetings. Finally, the awareness of CSSP and
   ICS-CERT has increased with ICS-CERT’s participation at various sector conferences, such
   as the cross-sector International Society of Automation in October 2011, American
   Petroleum Institute Conference in November 2011, Dams Sector Federal Energy
   Regulatory Commission Security Review and Training Course in December 2011, Nuclear
   Energy Institute Cyber Security Implementation Workshop in February 2012, and
   Southwest Power Pool Critical Infrastructure Protection Workshop in May 2012.

   Despite these actions, NPPD still faces challenges in reducing the cybersecurity risks for
   the Nation’s ICS. Further, NPPD can improve its efforts to protect and secure control
   systems that are essential to the Nation’s security and economy.

   Better Information Sharing and Communication Can Enhance Coordination Efforts
   With the Public

   ICS-CERT needs to improve its information sharing and communication efforts with
   Sector Specific Agencies and the private sector to ensure that these stakeholders are
   provided with potential ICS threats and vulnerabilities to mitigate security threats
   timely. Specifically, NPPD has implemented multiple information sharing communities
   of interest, which, according to the private sector, leads to confusion among its
   stakeholders and hinders its efforts to share cyber threat information on ICS. In
   addition, DHS needs to improve communications with Sector Specific Agencies and the


   4
    A virtual private network is a technology for using the Internet or another intermediate network to
   connect computers to isolated remote computer networks that would otherwise be inaccessible. Users
   can access resources on remote networks, such as files, printers, databases, or internal websites.

www.oig.dhs.gov                                      6	                                            OIG-13-39
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   private sector by providing advanced notification of ICS-CERT’s remote technical and
   onsite incident assessments.

           Consolidation of Multiple Information Sharing Communities of Interest

           DHS does not have a consolidated summary overview page on the HSIN-Critical
           Sectors that highlights new information and activities to ensure that ICS
           cybersecurity information is shared effectively. Many of the private sector
           partners we interviewed (e.g., owners/operators, regulators, and working
           groups) use the HSIN, ICS-CERT, and US-CERT portals to retrieve advisories,
           vulnerability information, and best practices. The HSIN-Critical Sectors
           communities of interest are designed to encourage communication and
           collaboration among all CIKR sectors and the Federal Government based on a
           different community of interest. Currently, there are 55 communities of
           interests on HSIN-Critical Sectors. The content is tailored for each of the CIKR
           sectors and must be searched individually for pertinent and updated
           information. For example, the Dams, Emergency Management, and Electricity
           and Oil and Natural Gas subsector communities of interest, which are used by
           companies that belong to multiple sectors, have to be searched individually and
           may contain non-cybersecurity information, such as physical security, emergency
           response, and planning. These searches can be time-consuming for the
           stakeholders.

           Additionally, each community of interest is arranged differently, making it more
           cumbersome for the users to retrieve useful information. For example, some
           HSIN users told us that the communities of interest contain a lot of duplicate
           information from a variety of sources and it is a challenge to get useful
           information from these communities of interest. As a result, some Sector
           Specific Agencies want to build additional portals for their stakeholders to
           streamline the information DHS provides.

           ICS-CERT officials acknowledged that existing communities of interest could
           confuse owners/operators. To eliminate duplicate information from the
           communities of interest, ICS-CERT created the Improve Communications
           Subcommittee within the Industrial Control Systems Joint Working Group to
           address stakeholder concerns regarding the communities of interests. ICS-CERT
           officials said that ICS-CERT only contributed contents to the communities of
           interest and did not determine how these sites were set up. However, NPPD
           plans discussions with OCIO to determine whether these communities of interest
           could be consolidated to better serve stakeholder needs.


www.oig.dhs.gov                                7                                       OIG-13-39
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           Advance Notification of Remote Technical and Onsite Assessments

           DHS does not communicate the results of its remote technical and onsite
           assessments to the public timely. We interviewed officials from three Sector
           Specific Agencies, six government and private sector councils, and 23 private
           companies from the dams, energy, and nuclear sectors to evaluate whether
           ICS-CERT shared sufficient information and communicated effectively. Overall,
           these officials acknowledged that DHS had improved the quality of alerts and
           bulletins that addressed various cyber topics. However, they expressed concerns
           regarding the timeliness of ICS-CERT’s information sharing and communications.
           As a result, the stakeholders perceived that a great deal of time might have
           elapsed until stakeholders were made aware of the same or similar incident that
           could affect their systems.

           All the Sector Specific Agencies senior officials expressed a need to be notified in
           advance when ICS-CERT is performing onsite or remote technical assistance
           assessments with private companies within their sectors. For example, these
           officials suggested that ICS-CERT publish a “heads-up” or “quick anonymous”
           informational alert regarding an ongoing investigative/pending event, sectors
           and devices affected, and whether a potential fix exists. The Sector Specific
           Agencies believe that such notifications would be helpful and would allow them
           to react more appropriately if other companies call them with questions. For
           example, according to Nuclear Sector Specific Agency officials, the Department’s
           Domestic Nuclear Detection Office sends an email alert to state authorities and
           its offices regarding upcoming site visits.5

           Additionally, both Sector Specific Agencies and private sector officials said that
           an advance notification would be helpful to increase dialogue with ICS-CERT on
           an event or threat that has not been made public. The private sector officials
           suggested that advance notification can allow them to assist ICS-CERT in
           developing solutions and mitigating strategies as well as determining whether an
           incident is isolated or systemic.

           ICS-CERT management acknowledged the Sector Specific Agencies’, councils’,
           and private sector’s concerns regarding the sharing of active incidents and


   5
     The Domestic Nuclear Detection Office (DNDO) is the primary U.S. government entity for implementing
   domestic nuclear detection efforts for a managed and coordinated response to radiological and nuclear
   threats, as well as integration of Federal nuclear forensics programs. Additionally, DNDO is charged with
   coordinating the development of the global nuclear detection and reporting architecture, with partners
   from Federal, state, local, and international governments and the private sector.

www.oig.dhs.gov                                        8                                               OIG-13-39
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           threats, such as identified cyber intrusions and spear-phishing emails.
           Additionally, ICS-CERT management told us that the private sector perceives that
           ICS-CERT has more useful information available than it is willing to share.
           However, ICS-CERT management said that proprietary information and ongoing
           law enforcement investigations limit the amount of information ICS-CERT can
           disseminate. For example, there were instances in which the Federal Bureau of
           Investigation was engaged in an ongoing investigation and had withheld
           sensitive law enforcement information. Additionally, the protected critical
           infrastructure information between DHS and the private sector owner prohibits
           ICS-CERT from sharing vulnerability and malware assessment information.

           Recommendations

           We recommend that the Undersecretary, NPPD:

           Recommendation #1:

           Collaborate with OCIO to streamline the HSIN portal to ensure that ICS cyber
           information is shared effectively.

           Recommendation #2:

           Promote collaboration with Sector Specific Agencies and private sector
           owners/operators by communicating preliminary technical and onsite
           assessment results to address and mitigate potential security threats on ICS.

           Management Comments and OIG Analysis

           We obtained written comments on a draft of this report from the Under
           Secretary, NPPD. We have included a copy of the comments in its entirety at
           appendix B. We also obtained technical comments to the draft report, which we
           incorporated into the final report where appropriate.

           NPPD concurred with recommendation 1. In the comments, the Under Secretary
           stated that NPPD will collaborate with the DHS OCIO to ensure that ICS cyber
           information is shared effectively in the HSIN portal. Currently, OCIO is planning
           to deploy “HSIN Release 3 Shared Space,” which will allow NPPD to share ICS and
           other information in one shared space on the portal. The Under Secretary also
           stated that it must be recognized that the HSIN portal supports multiple
           communities of interests, composed of DHS stakeholders who share an interest
           in similar types of information. ICS and other programs often tailor the
www.oig.dhs.gov                                9                                       OIG-13-39
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           information posted to these communities of interest so that it is relevant to the
           stakeholder recipients’ interests. According to the Under Secretary, a central ICS
           repository on HSIN will ensure that all ICS information can be found in one
           location. The Under Secretary stated as well that it is important to preserve the
           ability to post tailored information to communities of interest since critical
           infrastructure owners have expressed an interest in this distribution method.
           “HSIN Release 3 Shared Space” will enable both methods of information sharing.

           We agree that the steps that NPPD has taken and plans to take begin to satisfy
           this recommendation. This recommendation will remain open until NPPD
           provides documentation to support that all planned corrective actions are
           completed.

           NPPD concurred with recommendation 2. The Under Secretary stated in the
           comments that NPPD will continue its strong promotion of increased information
           sharing and collaboration with both Sector Specific Agencies and the private
           sector. This collaboration includes increased awareness and use of the
           Protected Critical Infrastructure Information program. In addition, the Under
           Secretary indicated that NPPD’s Office of Cybersecurity and Communications will
           collaborate with NPPD’s Office of Infrastructure Protection Protected Critical
           Infrastructure Information program office on the best approach to enhance
           collaboration and communication with Sector Specific Agencies and private
           sector partners regarding security threats to ICS.




www.oig.dhs.gov                                10                                      OIG-13-39
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of our audit was to evaluate the progress DHS has made in addressing
   cybersecurity issues and coordinating the response efforts for control systems between
   the public and private sectors. Specifically, we determined whether NPPD/ICS-CERT is:

   •	 Effectively coordinating the response on security incidents related to control
      systems.

   •	 Conducting vulnerability and malware analyses to reduce security risks on control
      systems.

   •	 Coordinating and sharing vulnerability information and threat analyses through
      information products, alerts, and adequate disclosure.

   Our audit focused on NPPD’s program for control system security for compliance with
   applicable requirements outlined in HSPD-7, Critical Infrastructure Identification,
   Prioritization, and Protection (December 2003), the National Infrastructure Protection
   Plan (February 2009), Cyberspace Policy Review (2009), Strategy for Securing Control
   Systems (October 2009) and National Institute of Standards and Technology Special
   Publication 800-82, Guide to Industrial Control System Security (June 2011).

   We interviewed selected officials from NPPD and Office of Infrastructure Protection
   management, as well as INL personnel. Further, we interviewed selected personnel
   from various sectors, including Dams, Energy, and Nuclear Reactors, Materials and
   Waste to obtain feedback regarding NPPD’s communication and information sharing,
   vulnerability assessments, and cybersecurity concerns.

   We conducted our work at the program level and visited the INL. Additionally, we
   visited selected private sector companies in Alabama, Maryland, North Carolina, and
   Pennsylvania, and conducted a number of teleconferences with companies in the Dams,
   Energy, and Nuclear Reactors, Materials and Waste sectors.


www.oig.dhs.gov                               11	                                      OIG-13-39
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   We conducted this performance audit between May and November 2012 pursuant to
   the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives. Major OIG contributors to the audit are identified in appendix C.

   The principal OIG point of contact for the audit is Frank W. Deffer, Assistant Inspector
   General, Office of Information Technology Audits, at (202) 254-4100.




www.oig.dhs.gov                                12                                       OIG-13-39
                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report
                                                                                         Offl~ o{,11* U,,1kr S~Q"
                                                                                         /'o'''''u"ul l'rfH«tI"" fllld 1'rIIg,,,,,U m,_,u,..
                                                                                          11.5. IXp.l1mu. of Ilom,"nd S«urlly
                                                                                         \\ u hio!!lon, OC 20S2K


                                                                                ~Q           Homeland
                                                      JAN 231013
                                                                                W            Security

                  Mr. Charles K. Edwards
                  Acting Inspector Oeneral
                  Office of Inspector General
                  U.s. Department of Homeland Security
                  Washington. DC 20528

                  Dear Mr. Edwards:

                  Re: Officc of Inspector Ocm.:nd Report, DI-IS Can Make Improvcmcnts to Secure Industrial
                  Control Systems (OIG Project No. 12· 136·ITA·NPPD)

                  Thank you for the opportunity to review and commtmt on this droft report. The U.S. Department
                  of Homeland S(."Curity (DlIS) appreciate!' the OIO' s work in planning and conducting its review
                  and issuing thi s report ,

                  The National Protection and Progr.uns Directorate (NPPD) is pleased to note OIO 's recogni tion
                  of the actions taken to improve the Industrial Control Systems (ICS) sec urity and foster better
                  partnerships betwccn the Federal and private sectors. In particular, the Industrial Control
                  Systems Cyber Emergency Response Team has made significant progress in increa.<;ing the
                  tilnclincss of actionable mitigation information shared with all stakcholders. both government
                  (Federal, state, local and tribal) and the private sector.

                  Technical comments have been provided under separate cover. Following arc our detailed
                  responses to the two OIG recommendations made in the drdO report.

                  Recommendation 1: TIle Under Secretary ofNrrO (;ollaborate with the Office of the Chief
                  In(ormation Officer (OC IO) to streamline the Homeland Security Information Network (HSIN)
                  portal to ensure That les cybcr information is shared effectively.

                  Response : Concur. NPPD will collabordte with the DHS OCIO to ensure thalleS eybcr
                  information is shared effectively in the HSIN portal. Currently. OCIO is planning to deploy
                  " HSIN Release 3 Shared Space," which will allow NPPD to !'hare les and other infonn8tio n in
                  one shared space on the portal. It must be recognized that the HSIN portal supports multiple
                  Communities of Interest (COIs), composed of DHS STakeholders who share an interest in similar
                  types of infonnation. les     and other programs often tailor the information posted to these eOls
                  so that it is relevant to the stakeholder recipients ' interests. A centrallCS repository on HSTN
                  will cnsure that all lCS inlormation can be found in one location. However, it is important to
                  preserve the ability to post tailored infonnatiollto COTs since critical infrastructure owners have




www.oig.dhs.gov                                                  13                                                                            OIG-13-39
                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security




                  expressed an interest in this distribution method. "HSIN Release 3 Shared Space" will enable
                  both methods of information sharing.

                  Kecommendation 2: The Under Secretary ofNPPD promote collaboration with Sector Specific
                  Agencies and privutc sector owners/operators by communicating preliminary technical and
                  onsite assessment results to address and mitigate potential security threats on ICS.

                  Response: Concur. NPPD will continue its strong promotion of increased intonnation sharing
                  and collaboration with both Sector-~pecific Agencies (SSA) and with the private sector. This
                  collaboration includes increased awareness and uS\;: ue the Protected Critical Infrastructure
                  Information (PC II) program. NPPD's Office ofCybersecurity and Communications will
                  collaborate with NPPD's Office of Infrastructure Protection pen program office on the best
                  approach to enhance collaboration and communication with SSAs and private sector partners
                  regarding security threats on ICS.

                  We look forward to working with you on future homeland security engagements.

                                                      Sincerely,




                                                      Rand Beers    II A
                                                      Under Secretaijr/ I




www.oig.dhs.gov                                            14                                                     OIG-13-39
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix C
   Major Contributors to This Report
   Chiu-Tong Tsang, Director
   Tarsha Cary, IT Audit Manager
   Shannon Frenyea, Senior Program Analyst
   Megan Ryno, Program Analyst
   Anna Hamlin, Referencer




www.oig.dhs.gov                              15                 OIG-13-39
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   Acting General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Assistant Secretary, Cyber Security and Communications
   Chief Information Officer (CIO)
   Deputy CIO
   Chief Information Security Officer
   Director, National Cybersecurity and Communications Integration Center
   Director, ICS-CERT
   Director, Critical Infrastructure Cyber Protection and Awareness, NPPD
   Director, US-CERT
   Director, Department GAO/OIG Liaison Office
   Director, Compliance and Oversight Program, Office of Chief Information Security Office
       (CISO)
   Audit Liaison, NPPD
   Audit Liaison, DHS/CISO
   Audit Liaison, DHS/CIO
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate


www.oig.dhs.gov                              16                                      OIG-13-39
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
